NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




                         FOLLOW-UP REVIEW
                              OF
                        NCUA ENCRYPTION
                Report #OIG-07-11     November 15, 2007




                          William A. DeSarno
                           Inspector General



 Released by:                          Auditor-in-Charge:




 James Hagen                           W. Marvin Stith, CISA
 Asst IG for Audits                    Sr Information Technology Auditor
                             TABLE OF CONTENTS




Section                                                                               Page

           EXECUTIVE SUMMARY                                                            1

           BACKGROUND                                                                   2

           OBJECTIVE                                                                    3

           SCOPE & METHODOLOGY                                                          3

           RESULTS                                                                      4

   A         Sensitive credit union data is unprotected on some examiners' computer     4
             equipment.

   B         Sensitive credit union data is exposed on the NCUA’s intranet              7

   C         Other Audit Matters – Encryption Technology                                8

Appendix     NCUA Management Comments
                                  EXECUTIVE SUMMARY
The National Credit Union Administration (NCUA) Office of Inspector General
(OIG) performed an audit to determine if NCUA is adequately protecting sensitive
electronic data. To determine whether the NCUA adequately protects sensitive
electronic data, we interviewed a judgmental sample of examiners and reviewed
the examiners’ computer equipment 1 . We also interviewed the Chief Information
Officer and reviewed policies and procedures related to protecting sensitive data.

We determined that the NCUA is adequately protecting sensitive electronic data.
The examiners were primarily saving exam-related files to their encrypted ‘My
Documents’ folder as advised by the OCIO. In addition, we did not identify any
unencrypted exam files on the NCUA-issued external hard drives. However, we
determined the NCUA could make improvements to better protect this data.
Specifically, while 94 percent of the exam files we identified on the laptops we
reviewed were encrypted, some examiners had potentially sensitive unencrypted
credit union data on their computer equipment. In addition, there was unrestricted
access to sensitive credit union data on the NCUA intranet. We also learned that
while the encryption technology the NCUA used adequately protected sensitive data
if used as guided, the NCUA OCIO was planning to implement a strategy to better
protect electronic PII and other sensitive data.

Our report includes five recommendations to NCUA to improve the security, access
and storage of sensitive credit union data. Management agreed with all five
recommendations and has started corrective action.




1
 Computer equipment includes NCUA-issued laptops, external hard drives, and USB flash drives, and unencrypted
media such as USB flash drives and CDs.


                                                     1
BACKGROUND:
In today’s computing environment, there are many threats to the confidentiality of
information stored on end user devices, which could cause information stored on
the devices to be accessed by unauthorized parties. Some threats are
unintentional, such as human error, while others are intentional. These threats
are posed by people with many different motivations, including causing mischief
and disruption and committing identity theft and other fraud. One common threat
against end user devices is loss or theft. Someone with physical access to a
device has many options for attempting to view the information stored on the
device. This is also a concern for insider attacks. To prevent disclosures of PII
and other sensitive data, the information needs to be secured.

Following numerous incidents at various Federal agencies involving the
compromise or loss of sensitive personal information, OMB issued memorandum
M-06-16 on June 23, 2006. The memorandum required agencies to take specific
actions to protect PII and sensitive information as outlined in NIST Special
Publication (SP) 800-53 and 800-53A. In addition, OMB recommended that
agencies take additional actions to protect sensitive agency information. OMB
requested that agencies ensure that the safeguards outlined in M-06-16 be
reviewed and in place within 45 days from the issuance of the memorandum
(August 7, 2006). Inspectors General were also requested to conduct
a subsequent review to assess their respective agency’s compliance. The OIG
issued a report in February 2007 (OIG-07-01) and determined the NCUA needed
to improve protections for PII transported or stored offsite. During this Privacy review
we addressed PII or sensitive data we identified during the FY 2006 FISMA audit that
were not encrypted prior to being removed from agency premises.

Before we completed the Privacy review, the NCUA had started to implement some
encryption capabilities. The CIO sent several emails to users providing instructions
on encryption. In addition, the OCIO began to distribute an encryption process that
applied encryption to select folders and files located on agency laptops. Once the
user initiated the encryption routine sent by the OCIO, the encryption would occur
automatically in the background on a daily basis. When you place or create files or
folders in encrypted folders, they are automatically encrypted. If you move a file or
folder from an encrypted location to a non-encrypted location, the encryption will
automatically be removed from the file or folder. In addition, if you move an
encrypted file or folder to a CD or DVD, the encryption will automatically be removed.
During our review, the OCIO also emailed instructions for encrypting the external
hard drive. Subsequent to the Privacy review, the OCIO implemented a technical
solution that verified if certain folders or documents were encrypted. This solution
forced the encryption on users that did not initiate the routine sent previously. If the
routine identified unencrypted documents, it automatically encrypted the files without
user intervention.




                                           2
OBJECTIVE:

The objective of this review was to determine if NCUA is adequately protecting
sensitive electronic data.

SCOPE & METHODOLOGY:

To determine whether the NCUA adequately protected sensitive electronic data,
we interviewed a judgmental sample of examiners and reviewed the examiners’
computer equipment. We searched the examiners’ computer equipment using
the following criteria to identify exam-related files:

*exam*.* - to identify exam files that contained ‘exam’ in the document title
   • *share*.* - to identify exam files that contained ‘share’ in the document title
   • *loan*.* - to identify exam files that contained ‘loan’ in the document title
   • *.nb7 - to identify backup files 2

Some of the common exam files and some unique exam files we identified
contained sensitive credit union data. For example, we determined that one of
the common exam files entitled ‘Query Report Shares Greater Than
$100,000.doc’ contained credit union member names and account numbers.
However, we did not view the contents of this file type each time we found it
unencrypted on an examiner’s computer equipment. Instead, we assumed that
exam files with the same common filenames potentially contained the same type
of sensitive data. On the other hand, we did view the contents of the other
unencrypted unique files we identified to determine that they contained sensitive
data. We also interviewed the Chief Information Officer and reviewed policies
and procedures related to protecting sensitive data.

We conducted our fieldwork from April 2007 through November 2007 and
performed this review in accordance with Generally Accepted Government Auditing
Standards.




2
  Backup files with this extension were created by the NovaStor NovaBACKUP software, which the NCUA used
previously for backups. The NCUA uses a new procedure and software that restricts backups to the NCUA-issued
encrypted external hard drives.


                                                     3
RESULTS:

A. Sensitive credit union data is unprotected on some examiners' computer
   equipment.

Examiners are primarily encrypting exam-related files; however, we identified
unencrypted exam files on some of the examiners’ laptops, NCUA-issued USB flash
drives, and unencrypted USB flash drives. Some of these files potentially contained
sensitive credit union data such as credit union member names and account
numbers; CAMEL ratings; and credit union operating exceptions, violations of law or
regulation, or unsound policies, practices or procedures. Following are the results of
our review of the examiners’ computer equipment:

    •    Nine of the fifteen examiners we interviewed had a total of 214 unencrypted
         exam files located on their C: drive. We determined that (107) of these
         unencrypted files potentially contained sensitive data. We were able to
         determine that 64 of these sensitive files3 were located either in the Desktop
         folder, Desktop\OldDesktop folder or a Desktop\%Other folder%\4 . In
         addition, were able to determine the dates of the 107 sensitive files as follows:



                                 2005 and            Jan 1, 2006 –         Sep 1, 2006 –
                   Dates                                                                        2007         Total
                                 Earlier             Aug 31, 20065         Dec 31, 2006
                     Files              47                  16                    10                34        107

                                       Table A. Dates of Potentially Sensitive Exam Files

              o Between October and November 2005 the OCIO created an
                OldDesktop sub folder within the laptops’ Desktop folder to store files
                that existed on users’ desktops prior to the NCUA’s transition to a new
                operating system. In February 2006 the NCUA OCIO advised field
                staff to delete old exam files before the agency-wide conversion to new
                laptops. Some examiners may have forgotten about the exam files
                placed in their OldDesktop folders in 2005.

              o The NCUA OCIO 2006 IT policy (2006 Hi-Tech Manual) provided
                users guidance on encrypting folders; however, it did not mandate that
                users encrypt folders or advise which folders to encrypt. In addition,
                when the OCIO implemented its new encryption procedures in August
                2006, it did not advise field staff to delete old exam files or move exam
                files still needed to the encrypted folders. This lack of guidance may


3
  We were unable to identify the locations of the other 43 files containing sensitive information.
4
  %OtherFolder% substitutes for the name of any subfolder of the Desktop folder other than the OldDesktop folder.
5
  The NCUA OCIO forced the encryption policy effective September 1, 2006.


                                                        4
                    have contributed to why some exam files existed in other unencrypted
                    folders on examiners’ laptops.

               o The NCUA OCIO 2007 IT policy (2007 Hi-Tech Manual) advised that
                 all work-related files be put into the encrypted 'My Documents' folder6
                 and that no confidential information should be saved on the desktop. A
                 few examiners admitted they saved exam files to the desktop, but also
                 said they later deleted them. Regardless, some examiners did not
                 follow NCUA policy.

     •    We identified 51 unencrypted files on three NCUA-issued USB flash drives.7
          More than half of these files potentially contained sensitive credit union data.
          In addition, three examiners said they used unencrypted USB flash drives to
          save exam files. However, we did not identify any remaining unencrypted
          files on these drives. The NCUA previously authorized examiners to
          purchase other computer media such as USB drives and CDs. The NCUA
          did not have a formal policy requiring examiners to use the NCUA-issued
          USB flash drive.8 However, in August 2006, the OCIO instructed examiners
          to use the NCUA-issued USB flash drives for sensitive data.9 Some
          examiners did not follow OCIO guidance.

     •    We reviewed external hard drives that examiners used for backing up files on
          their laptops. All the files on the external hard drives were encrypted.
          However, six of the 15 examiners had old unencrypted backup files10 on their
          laptops and a CD. The NCUA OCIO 2006 IT policy provided instructions to
          examiners to backup files weekly to their external hard drives using NovaStor
          NovaBACKUP software. The NCUA used the NovaBACKUP software prior
          to when the NCUA implemented its new encryption policies and procedures.
          Therefore, these backup files may have contained unencrypted exam files. In
          addition, the 2006 IT policy indicated examiners could use other computer
          media such as CDs for more frequent backups. However, in August 2006 the
          OCIO provided instructions to examiners to limit the use of CDs and
          requested examiners take their CDs to the regional conference to be
          destroyed.11 Some examiners did not follow the OCIO’s guidance on backing
          up files to external hard drives and other computer media or for destroying
          CDs.

6
  The ‘My Documents’ folder is located on the D: drive.
7
  The OCIO distributed USB flash drives with an encryption capability to examiners beginning during the NCUA
regional conference in August 2006. The USB flash drive’s encryption capability is not automatic. It requires the
user to login to the feature in order to place files in the encrypted portion of the drive; otherwise, any files a user
places on the drive are unencrypted.
8
  In the OIG report, Review of NCUA’s Compliance with OMB M-06-16 Protection of Sensitive Agency
Information (Report #OIG-07-01) dated February 7, 2007, the OCIO agreed to develop a policy that
addresses information protection needs for PII accessed, transported, or stored remotely.
9
  The NCUA is developing an agency instruction that requires examiners to use computer equipment that is
encryption-capable with the encryption function enabled.
10
   These were the backup files with the .nb7 extension created using the NovaStor NovaBACKUP software.
11
   The NCUA is developing a policy that does not allow the use of unencrypted computer equipment.


                                                            5
   •   We identified two NCUA-issued USB flash drives on which the encryption
       login feature did not function. One of these drives contained unencrypted files
       as discussed above. We previously reported these drives were not
       NIST-validated and therefore were not approved for use by NIST. The OCIO
       agreed to purchase new drives if possible and planned to distribute
       NIST-validated drives in January 2008.

If examiners' laptops or other media are lost or stolen, sensitive credit union data
could be exposed to unauthorized third parties potentially resulting in the theft of
credit union members' identities, causing embarrassment to the NCUA and exposing
the agency to potential liabilities and potentially exposing the NCUA to liabilities.

Recommendations #1: NCUA OCIO should reiterate to examiners
the requirement to save all exam-related files only to the encrypted ‘My
Documents’ folder and to use only NCUA-issued USB flash drives for exams or
interim backups.

Management Response: Agreed. CIO Verner will issue this reminder to all field
staff.

OIG Response: We agree with proposed action.

Recommendations #2: NCUA OCIO should require examiners to delete
unencrypted exam files that are not needed and to delete old backup files from their
computer equipment or if needed, to move the files to the encrypted "My Documents"
folder.

Management Response: Agreed. CIO Verner will include this in his reminder
message to staff.

OIG Response: We agree with proposed action.

Recommendations #3: NCUA OCIO should assist examiners in locating
unencrypted exam and backup files and require the examiners to move or delete
these files.

Management Response: Agreed. CIO Verner will include this in his reminder
message to staff.

OIG Response: We agree with proposed action.

Recommendations #4: Until the NCUA OCIO is able to issue NIST-validated USB
flash drives, OCIO should investigate and resolve problems with the operation of the
encryption software on the current NCUA-issued drives.




                                          6
Management Response: Agreed. CIO Verner will include this in his reminder
message to staff.

OIG Response: We agree with proposed action.


B. Sensitive credit union data is exposed on the NCUA’s intranet

The NCUA maintains a link to credit union exam data (AIRES Downloads) on its
intranet. Exam data is available for credit unions in all five NCUA regions. The
AIRES Downloads repository contains the same type of files examiners maintain on
their laptops and contains files at least as far back as 2000. Therefore, these files
also potentially contained sensitive credit union data such as credit union member
names and account numbers; CAMEL ratings; and credit union operating exceptions,
violations of law or regulation, or unsound policies, practices or procedures. For
example, a file we downloaded for one credit union contained a subset of the credit
union’s member names, social security numbers and credit card numbers. There are
no restrictions to limit or control access to this data. Consequently, anyone with
access to the NCUA intranet can access this data regardless of whether exam data
is within the scope of their responsibilities. For example, any examiner from any
region could access exam data for any credit union within their region or any other
region. Also, an NCUA employee who works in a non-exam area could access
exam data for credit unions in any of the five regions. These users would be able to
view and save sensitive credit union data.

OMB A-130, Appendix III indicates that the greatest harm to a system has come from
authorized individuals engaged in improper activities, whether intentional or
accidental. In addition, OMB Memorandum 07-16 indicates that limiting access to PII
to only those individuals who must have such access may be one way to greatly
reduce the risks related to a data breach of PII. The Privacy Act of 1974 requires
agencies to establish appropriate administrative, technical, and physical safeguards
to insure the security and confidentiality of records and to protect against any
anticipated threats or hazards to their security or integrity which could result in
substantial harm, embarrassment, inconvenience or unfairness to any individual on
whom information is maintained.

Uncontrolled access to the AIRES exam data by NCUA users without a
need-to-know could result in the misuse of sensitive credit union data, the theft of
credit union members' identities, cause embarrassment to the NCUA and expose the
agency to potential liabilities.




                                         7
Recommendation #5: NCUA OCIO should implement technical access controls
to AIRES exam data on the NCUA intranet.

Management Response: Agreed. OCIO will work with E&I to establish and
implement both procedural guidance and technical controls that improve the security
of data located on the NCUA Intranet site. Options we are exploring include:

     •   Migrating sensitive data to from the intranet to SharePoint where permissions
         for accessing the information is more easily defined;
     •   Developing a log to identify users who download sensitive data from the
         intranet; and/or,
     •   Archiving additional sensitive data so it is not as accessible as the current
         location.

OIG Response: We agree with proposed action.


Other Audit Matters – Encryption Technology

The NCUA implemented an adequate encryption technology to protect sensitive
credit union data. However, as discussed above, some sensitive exam data is still
exposed on NCUA computer equipment.

NIST Draft SP 800-111 indicates there are many technologies available for
encrypting data stored on end user devices. Encryption can be applied to
individual files containing sensitive information, or broadly, such as encrypting all
storage. Three of the most commonly used technologies are full disk encryption,
virtual disk encryption and volume encryption, and file/folder encryption:

     1. Full disk encryption (FDE) is the process of encrypting all the data on the hard
        drive used to boot a computer, including the computer’s operating system
        (OS), and permitting access to the data only after successful authentication to
        the FDE product. For a computer that is not booted, all the information
        encrypted by FDE is protected, assuming that pre-boot authentication is
        required.

     2. Virtual disk12 encryption is the process of encrypting a container, which can
        hold many files and folders, and permitting access to the data within the
        container only after proper authentication. Volume13 encryption is the process


12
   A virtual disk is a program that simulates a hard disk drive, using part of the computer's random access memory.
Files can be copied into the virtual disk and edited. The virtual disk cannot store files permanently; the updates must
be written to the hard disk or floppy disk before the power is turned off.
13
   A volume is a fixed amount of storage on a disk or tape. The term volume is often used as a synonym for the
storage medium itself, but it is possible for a single disk to contain more than one volume or for a volume to span
more than one disk.


                                                          8
            of encrypting an entire volume and permitting access to the data on the
            volume only after proper authentication.

       3. File encryption is the process of encrypting individual files on a storage
          medium and permitting access to the encrypted data only after proper
          authentication. Folder encryption is very similar to file encryption, only it
          addresses individual folders instead of files.

The NCUA uses file encryption technology, specifically Windows Encrypting File
System (EFS) 14 . This encryption is selective and encrypts files automatically,
based on defined attributes like file location (e.g., folder), file type (e.g.,
spreadsheets) or source application (e.g., all Excel files). The NCUA provides
encryptions of files based on their location in folders the OCIO specified. EFS
relies on sensitive data being written into these protected locations and cannot
stop users from copying encrypted files to unencrypted locations, which is what
has occurred within the NCUA.

The CIO informed us the OCIO plans to implement a new strategy for encryption,
data security and PII that includes:

            •    NIST-approved USB flash drives the OCIO plans to issue in January 2008
            •    Email encryption
            •    Full disk encryption
            •    A new software product to encrypt removable media
            •    Software to protect file permissions (e.g., encryption) as the data moves
                 from one place to the next.

We believe the CIO’s strategy will result in improved encryption and data security that
will better protect the NCUA’s PII and other sensitive data. We will follow the OCIO’s
efforts to improve the protection of the agency’s PII and sensitive data.




14
     Windows EFS is Microsoft's basic file/folder encryption tool.


                                                             9
                                                                                  APPENDIX
                            NCUA MANAGEMENT COMMENTS

                                                                       OCIO/D2V/NRM:nrm

To:              Inspector General Bill DeSarno

From:            Executive Director J. Leonard Skiles /S/

Subject:         Comments on OIG Review of NCUA Encryption

Date:            November 13, 2007


We have reviewed your draft report on data encryption and found it to be very
thorough and informative. We agree with your findings. OCIO and E&I will work
together to implement them.

The first four recommendations pertain to sensitive credit union data found on
examiners’ hard drives:

      1. NCUA OCIO should reiterate to examiners the requirement to save all exam-related
         files only to the encrypted ‘My Documents’ folder and to use only NCUA-issued USB
         flash drives for exams or interim backups.

         Management Response: Agreed. CIO Verner will issue this reminder to all field
         staff.

      2. NCUA OCIO should require examiners to delete unencrypted exam files that are not
         needed and to delete old backup files from their computer equipment or if needed, to
         move the files to the encrypted "My Documents" folder.

         Management Response: Agreed. CIO Verner will include this in his reminder
         message to staff.

      3. NCUA OCIO should assist examiners in locating unencrypted exam and backup files
         and require the examiners to move or delete these files.

         Management Response: Agreed. CIO Verner will include this in his reminder
         message to staff.

      4. Until the NCUA OCIO is able to issue NIST-validated USB flash drives, OCIO
         should investigate and resolve problems with the operation of the encryption software
         on the current NCUA-issued drives.

         Management Response: Agreed. CIO Verner will include this in his reminder
         message to staff.




                                               1
                                                                                      APPENDIX
                             NCUA MANAGEMENT COMMENTS

The final recommendation pertains to sensitive credit union data accessed via
the NCUA Intranet:

      •   NCUA OCIO should implement technical access controls to AIRES exam data on the
          NCUA intranet.

          Management Response: Agreed. OCIO will work with E&I to establish and
          implement both procedural guidance and technical controls that improve the security
          of data located on the NCUA Intranet site. Options we are exploring include:

          • Migrating sensitive data to from the intranet to SharePoint where permissions for
          accessing the information is more easily defined;

          • Developing a log to identify users who download sensitive data from the intranet;
          and/or,

          • Archiving additional sensitive data so it is not as accessible as the current location.

Thank you for giving us the opportunity to review the draft report. If you have any questions
about our response, please feel free to call Doug Verner.

cc:       Director David Marquis
          Director Doug Verner
          Assistant IG Jim Hagen
          Acting-DED Dave Hibshman




                                                  2
